OIG Investigative Reports, Former Director of Internal Audit for the District of Columbia Public Schools sentenced to prison for theft of federal funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
United States Attorney's Office
District of Columbia
Jeffrey A. Taylor
United States Attorney
PRESS RELEASE
FOR IMMEDIATE RELEASE
Wednesday, May 7, 2008
USAO Public Affairs
(202) 514-6933
www.usdoj.gov/usao/dc
Former Director of Internal Audit for the District of Columbia Public Schools sentenced to prison for theft of federal funds
WASHINGTON - Eugene P. Smith, 47, the former Director of Internal Audit for the District of Columbia Public Schools, has been sentenced to six months in prison to be followed by four months of home confinement in connection with his theft of $46,742.94 from programs receiving federal funds, U.S. Attorney Jeffrey A. Taylor announced today.
Smith, formerly of Odenton, Maryland, was sentenced earlier today in the U.S. District Court for the District of Columbia before the Honorable Rosemary M. Collyer.  In addition to the prison sentence, Judge Collyer placed Smith on two years of supervised release and ordered him to pay restitution in the amount of $46,742.94 to the District of Columbia Public Schools.
Smith pled guilty to one count of theft from programs receiving federal funds on December 10, 2007.  As part of his plea, Smith admitted that from January 1997 through July 2002, he was employed by the District of Columbia Public Schools, and that he was the Director of Internal Audit for DCPS from February 1999 through July 2002.
On September 6, 2001, the District of Columbia Public Schools Board of Education revoked the charter of a public charter school, the New Vistas Preparatory Public Charter School (“New Vistas”).  On September 7, 2001, in his capacity as the Director of Internal Audit for DCPS, Smith became responsible for closing out New Vistas' financial accounts.  On September 7, 2001, Smith designated himself as the sole signatory on a bank account held in the name of New Vistas (“the original account”).
On October 4, 2001, Smith closed the original account and transferred the balance of the original account, approximately $518,125.66, into a new account he opened at the same bank (the “second account”).  The U.S. Department of Education had provided benefits to DCPS and DCPS, in turn, had provided benefits to New Vistas.  Smith admitted that he was the sole signatory on the second account.  He also admitted that he obtained a business check card, or debit card, for the second account, even though any outstanding debts would have been, and, in fact, were, paid through purchase orders and checks.  Smith also admitted that, at his direction, BB&T mailed the account statements for the second account and the debit card associated with that account to his then-home address in Odenton, Maryland.
On or about July 31, 2002, Smith’s employment with DCPS was terminated.  At the time of his termination, New Vistas' vendors had been paid off and the balance in the second account was approximately $52,679.90.  Smith, however, did not close the second account before the termination of his employment and did not relinquish possession of the associated debit card.  Instead, Smith admitted that between April 2003 and July 2003, following his termination from DCPS, he made unauthorized expenditures of approximately $46,742.94 in cash and incurred fees for his personal benefit from the second account as a result of approximately 114 transactions using the debit card associated with that account in the State of Maryland and the Commonwealth of Virginia.
In announcing the sentence, U.S. Attorney Taylor praised the investigative efforts of Special Agents Michele Rankin and Sean Ryan of the Federal Bureau of Investigation, Special Agent Kerthalia Peavely of the District of Columbia Office of the Inspector General, and Special Agent Derrick L. Franklin of the U.S. Department of Education.  He also recognized the efforts of U.S. Attorney’s Office Legal Assistant Lisa Robinson.  Finally, he commended the efforts of former Assistant U.S. Attorney Kim Herd and Assistant U.S. Attorney Michael K. Atkinson, who prosecuted the case.
###
08-118
Top
Printable view
Share this page
Last Modified: 08/05/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov